Washington, D.C. 20530

September 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Carlos Enrique Urrufia Robles v. William P. Barr, Attorney General,
S.Ct. No. 19-1363

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on June 8, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 21, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

19-1363
ROBLES, CARLOS ENRIQUE URRUFIA
WILLIAM P. BARR, ATTORNEY GENERAL

BENJAMIN CASPER SANCHEZ
JAMES H. BINGER CENTER FOR NEW
AMERICANS UNIV. OF MINNESOTA LAW
SCHOOL
190 MONDALE HALL
229 19TH AVE. SOUTH
MINNEAPOLIS , MN 55455
612-625-5515
CASPE010@UMN.EDU

